No. 20-437

IN THE

$upreme Qtourt of tbe Wniteb $!ates
UNITED STATES,

v.

Petitioner,

REFUGIO PALOMAR-SANTIAGO,

Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for Former Executive Office of Immigration Review Judges as Amici
Curiae in Support of Respondent contains 4,069 words and complies with the word
limitation established by Rule 33.l(g)(xiv) of the Rules of this Court.
Dated: March 31, 2021

